X

App. 1
NOT RECOMMENED FOR FULL-TEXT
PUBLICATION
No. 19-5509
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
EDWARD RONNY ARNOLD
Plaintiff-Appellant,
v.

HERBERT SLATERY, III
Defendant-Appellee.

) ON APPEAL
) FROM THE
) UNITED STATES
) DISTRICT
) COURT FOR
)THE MIDDLE
) DISTRICT OF
) TENNESSEE
)
)

ORDER
Before: CLAY, McKEAGUE, and BUSH, Circuit
Judges.
Edward Ronny Arnold, proceeding pro se, appeals
the district court’s dismissal of his complaint seeking
to recover wages related to his previous state

s’

App. 2
employment for want of subject matter jurisdiction.
This appeal has been referred to a panel of the Court
that, upon examination, unanimously agrees that
oral argument is not needed. See Fed. R. App. P.
34(a).
In his complaint, Arnold alleged that, pursuant to
Tennessee law, State offices were open on October
12, 2015 (i.e. Columbus Day, a federal holiday) and
closed on November 27, 2015 (i.e. the day after
Thanksgiving) as a substituted holiday. See Tenn.
Code. Ann. § 4-4-105(a)(3). According to Arnold,
because he was required to work on October 12,
2015, and did not receive the benefits of the
substituted holiday because his employment ended
on November 24, 2015, he was owed $180 in wages.
On the motion of Attorney General of Tennessee
Herbert H. Slatery,

App. 3
No. 19-5509
-2-

III, and the recommendation of the magistrate judge,
the district court dismissed Arnold’s complaint
without

prejudice

for want

of subject

matter

jurisdiction.
We review a district court’s decision to dismiss a
complaint for want of subject matter jurisdiction de
novo, accepting its factual findings as true unless
they are clearly erroneous. Davis v. United States,
499 F.3d 590, 593-94 (6th Cir. 2007). Arnold bore the
burden of proving jurisdiction, and he claimed the
district court had subject matter jurisdiction because
his case presented a federal question. See id 594; see
also 28

U.S.C.

§

1331

(giving federal courts

jurisdiction in cases “arising under the Constitution,

App. 4
laws, or treaties of the United States”) “A claim
under federal laws when the plaintiffs statement of
his own cause of action shows that it is based upon
federal laws or the federal Constitution.” Davis, 499
F.3d at 594 (quoting Cobb v. Contract Transp., Inc.,
452 F.3d 543, 548 (6th Cir. 2006)).
According to Arnold, his case presents a federal
question because it arises under 5 U.S.C. § § 5546
and 6103. But these statutes both concern employees
of the federal government only. Because a state
employee is not an “employee’ for purposes of Title 5,
which

includes

both

statutes,

Arnold’s

claim

concerning wages that were not paid in his state
employment does not arise under either statute, as
the district court explained. Accordingly, the district
court properly determined that it lacked subject
matter jurisdiction.

App. 5
Arnold also takes issue with the district court’s
conclusion service of certain filings. After Arnold
responded to Slatery’s motion to dismiss, Slatery
moved to file a reply a reply and, after the district
court granted the motion, filed a reply that motion,
serving both by mail. Arnold claimed that he did not
receive either filing, arguing that Slatery violated
Rule 5 of the Federal Rules of Civil Procedure and
taking issue with the use of the electronic filing
system. But as the district court explained, Slatery
complied with Rule 5 by mailing the filings to
Arnold’s address of record and whether Arnold
received the filings had no effect. See Fed. R. Civ. P.
5(b)(2)(C) (providing that “service is complete upon
mailing”). And whether electronic filing effected
service makes no difference because Slatery properly
effected service by mail.

App. 6
19-5509
-3We AFFIRM the judgment of the district court.

ENTERED BY ORDER OF THE COURT
/s/

Deborah S. Hunt
Deborah S. Hunt, Clerk

App. 7
IN THE UNITED STATES DISTRICT COURT FOR
THE
MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
EDWARD RONNY ARNOLD

)
)
)

Plaintiff,

) No:3:18-cv-00280
)

HERBERT SLATTERY, III,
Defendant,

)JUDGE
)CAMPBELL
)
) MAGISTRATE
) JUDGE
) NEWBERN
)

ORDER

Pending before the Court is the Magistrate
Judge’s Report and Recommendation (Doc. No. 18)
recommending that the Court grant Defendant’s
Motion to Dismiss (Doc. No. 7). The pro se plaintiff
filed objections (Doc. No. 19). Defendant responded to

App. 8
Plaintiffs objections (Doc. No. 20) and Plaintiff filed
a Response to Defendant’s Response (Doc. No. 21).
The Magistrate Judge recommends the Compliant be
dismissed for lack of subject matter jurisdiction.
After a de novo review, and for the following reasons,
Plaintiffs objections are OVERRULED and the
report and Recommendation is ADOPTED.
1.

STANDARD OF REVIEW

Under 28 U.S.C. § 636(b)(1) and Local Rule
72.03(b)(3), a district court reviews de novo any
portion of a report and recommendation to which a
specific objection is made. United States v. Curtis,
237 F.3d 598, 603 (6th Cir. 2001). General or
conclusory

objections

are

insufficient.

See

Zimmerman v. Cason, 354 F. Appx. 228, 230 (6th Cir.
2001. Thus, “only those specific objections to the

App. 9
magistrate’s report made to the district court will be
preserved for appellate review.” Id. (quoting Smith v.
Detroit Fed’n of Teachers, 829 F.2d 1370, 1373 (6th
Cir. 1987)).

Case 3:18-cv-00280 Document 23 Filed 04/22/19 Page
1 of 3 PagelD #: 123

App. 10
In combining the review, the court may “accept,
reject, or modify, in whole or in part, the findings or
recommendations made by the magistrate Judge.” 28
U.S.C. § 636(b)(1)(C).
II. ANALYSIS
Plaintiff raises two objections to the Report
and Recommendation of the magistrate judge. First
Plaintiff argues that the Court incorrectly construed
the Complaint as an action for back wages because
“the Civil Action does not allege the Defendant.
Herbert Slattery III, State of Tennessee Attorney
General and Reporter, owes the Plaintiff wages.” (Id.
At 5) Plaintiff argues that the complaint challenges
the Tennessee Attorney General’s legal opinion that
5 U.S.C. § 6103 “does not address compensation for a
substituted holiday” and because the Attorney

App. 11
General’s opinion “affects U.S.C. § 541.602” his claim
is “arising under” federal law. (Doc. No. 19 at 2-3.)
The

magistrate

judge

determined

that

Plaintiffs claim was one for back wages and that the
complaint alleged “Defend[a]nt owes Plaintiff for
working Columbus Day, October 22, 2015.” (Doc. No.
18 at 1.) A review of the complaint (Doc. No. 1) shows
the magistrate judge’s determination is correct. The
Complaint clearly states: “Statement of Claim:
Appeal from State of Tennessee Court of Appeals . . .
Defendant owes Plaintiff wages earned for working
Columbus day, October 22, 2015.” {Id.)

Therefore,

the magistrate judge correctly determined that the
claim was one for wages owed.
As basis for jurisdiction, the Complaint cites 5
U;S.C. § 6103. (Id.) The magistrate judge correctly

App. 12
ruled that Section 6103 d9oes not grant jurisdiction
to the federal court to hear claims of state employees
to which the statute clearly does not apply. Section
6103 provides that various days, including Columbus
day, are “legal public holiday[s]

... for federal

employees.” Plaintiff has not shown that Section
6103 applied to his employment with the State of
Tennessee. See

r

Case 3:18-cv-00280 Document 23 Filed 04/22/19 Page
2 of 3 PagelD #: 124

App. 13
Ammons v. Ally Fin., Inc., 305 F. Supp. 3d 818, 820
(M.D. Tenn. 2018) (party asserting jurisdiction has
the

burden of establishing that

subject-matter

jurisdiction exists).
Plaintiffs second objection to the Report and
Recommendation

is

that the

magistrate judge

improperly considered the Reply in Further Support
of the Motion to Dismiss (Doc. No. 13), because the
reply was not properly served upon Plaintiff. (Doc.
No. 19 at 4.) The certificate of service included with
the reply indicates that the reply was electronically
filed with the court, emailed to Plaintiff, and mailed
to Plaintiffs address of record. Plaintiff claims that
service was invalid because he did not consent to
electronic service and he did not receive the copy of
the reply sent by mail to his address of record. (Doc.
No. 4.)

\

App. 14
Federal Rule of Civil Procedure 5(b)(2)(C) provides
the paper is served “by mailing it to the person’s last
known address-in which event service is complete
upon mailing.” The fact the Defendant also emailed a
copy to Plaintiff and electronically filed the document
with the court, does not render service by mail
improper or ineffective, Plaintiffs argument that
service was not complete is without merit.
III. CONCLUSION
The

Court

has

reviewed

the

Report

and

Recommendation and concludes that it should be
adopted and approved. Accordingly, Defendant’s
Motion to Dismiss is GRANTED. This Order shall
constitute the final judgment in this case pursuant to
Fed. R. Civ. P. 38.

App. 15
It is so ORDERED.
/s/ William L. Campbell. Jr.
WILLIAM L. CAMPBELL,
JR.
UNITED

STATES

DISTRICT JUDGE

Case 3:18-cv-00280 Document 23 Filed 04/22/19 Page
3 of 3 PagelD #: 125

App. 16
IN THE UNITED STATES DISTRICT COURT FOR
THE MIDDLE DISTRICT OF TENNESSEE
, EDWARD RONNY ARNOLD
Plaintiff,

(NO: 3:18-cv-00280
( (Primary)
(Judge Campbell
(Magistrate Judge
(Newbern
(

HERBERT SLATERY III
Defendant,

(NO: M2017-00808( COA-RS-CV
( (Secondary)
(

DEFENDANT’S VIOLATION OF FED. RULE. CIV.
P. 5 (B) (E) IN FILING OF MOTION FOR LEAVE
TO FILE REPLY

Comes Plaintiff Edward Ronny Arnold, Pro Se,
respectfully presenting notice to Magistrate Judge
Newbern of a violation of Fed. Rule. Civ. P. 5 (b) (e),
Certificate of Service, as submitted to the court in

App. 17
the Defendant’s filing of the Leave of the Court
pursuant to Local Rule 7.01 (b) to file a REPLY IN
FURTHER SUPPORT OF DEFENDANT’S MOTION
TO DISMISS via Electronic Case Filing (ECF).
Local Rule 7.01 (b) allows the Defendant, Herbert
Slattery, III, State of Tennessee Attorney General
and Reporter, to file a reply memorandum upon
leave to the court. Hence, a failure to file a timely
response by the Plaintiff, shall indicate that there is
no opposition to the motion submitted by the
Defendant.
Fed. Rule. Civ. P. 5 (b) (e) requires proper service
upon the Plaintiff which was not completed. In this
case, the Defendant, by and through counsel, filed a
reply memorandum to the court via Electronic Case
Filing (ECF) with full knowledge the Plaintiff did not

App. 18
have access to the system. The Certificate of Service
states the REPLY IN FURTHER SUPPORT OF
DEFENDANT’S MOTION TO DISMISS was
forwarded by first class mail. This action was not
completed as the Plaintiff did not receive a copy and
only discovered the filing by the receipt of the
GRANTED motion sent by the United States District
Court Clerk’s Office.
Tennessee State Courts, and the State of
Tennessee Office of the Attorney General and
Reporter, have been notified of issues related to
Departments of the State of Tennessee receiving
certified mail in the case of Edward Ronny Arnold v.
Burns Phillips Commissioner of the State of
Tennessee Department ofLabor and Workforce
DevelopmentM2011-QllQ‘i-GOA-W&-CV (Tenn. Ct.
App. 2018). As the result of issues related to claims

App. 19
by representatives of the State of Tennessee
Department of Labor and Workforce Development
not receiving certified mail from the Plaintiff, it
became necessary for all correspondence between the
Plaintiff and the Defendant to be completed by the
Plaintiff through United States Postal Service
certified mail, return receipt.
Please find a brief outlining the improper filing of
the Defendant’s Reply Memorandum to the Court
filed April 27, 2018.
Respectfully submitted this
2018

day of May,

Is/ Edward Ronny Arnold

Edward Ronny Arnold, Pro Se
5036 Suter Drive
Nashville, Tennessee 37211
(615) 331-7107

App. 20
CERTIFICATE OF SERVICE
I hereby certify that a true and exact copy of the
foregoing DEFENDANT’S VIOLATION OF FED.
RULE. CIV. P. 5 (b) (e) IN FILING OF MOTION
FOR LEAVE TO FILE REPLY has been served upon
counsel for Defendant by U.S. Mail, postage prepaid,
addressed to:

Herbert Slatery III
State of Tennessee Attorney General and Reporter
Rachel Jackson Building
320 6th Avenue North.
Nashville, TN. 37243
Taylor Jenkins
Assistant Attorney General
Civil Litigation and State Services Division
P.O. Box 20207
Nashville, Tennessee 37202-0207
On this the

day of May, 2018

/s/ Edward Ronny Arnold
Edward Ronny Arnold, Pro Se
5036 Suter Drive
Nashville, Tennessee 37211

App. 21
IN THE UNITED STATES DISTRICT COURT FOR
THE MIDDLE DISTRICT OF TENNESSEE

EDWARD RONNY ARNOLD
Plaintiff,

(NO: 3:18-cv-00280
( (Primary)
(Judge Campbell
(Magistrate Judge
( Newbern
(

HERBERT SLATERY III
Defendant,

( NO: M2017-00808( COA-RS-CV
( (Secondary)
(

DEFENDANT’S VIOLATION OF FED. RULE. CIV.
P. 5 (B) (E)IN FILING OF MOTION FOR LEAVE
TO FILE REPLY AND REPLY IN FURTHER
SUPPORT OF DEFENDANT’S MOTION TO
DISMISS

i

App. 22
Comes Plaintiff Edward Ronny Arnold, Pro Se,
respectfully presenting notice to Magistrate Judge
Newbern of a violation of Fed. Rule. Civ. P. 5 (b) (e),
Certificate of Service, as submitted to the court in
the Defendant’s filing of the Leave of the Court
pursuant to Local Rule 7.01 (b) to file a reply in
support of Defendant’s Motion to Dismiss via
Electronic Case Filing (ECF).
While the PRACTICE AND PROCEDURE
MANUAL FOR JUDGES AND MAGISTRATE
JUDGES FOR THE MIIDLE DISTRICT OF
TENNESSEE (Magistrate Judge Alistair E.
Newbern), is not an official statement of the Court
and this Manual may not be cited as authority, it
presents guidelines for the administration of legal
issue before the court. In this case, section B. defines
communication with the court are to follow the

App. 23
Federal Rules of Civil Procedure and section E. Pro
se litigants are expected to follow the Federal Rules
of Civil Procedure, the Court’s Local Rules and these
guidelines, as are all parties.
It is reasonable to conclude this case, currently
under court order by Federal Judge Campbell to
Magistrate Newbern, is to follow the standard.
In this case, the Defendant, Herbert Slattery, III,
State of Tennessee Attorney General and Reporter,
as represented by the State of Tennessee Office of
the Attorney General, did not comply with Fed. R.
Civ. P. 5 (b) (e) in the process of the DEFENDANT’S
MOTION FOR LEAVE TO FILE REPLY and REPLY
IN FURTHER SUPPORT OF DEFENDANT’S
MOTION TO DISMISS submitted April 27, 2018.

App. 24
In this case, the Defendant’s representative was
aware the Plaintiff, Pro Se, was not a practicing
attorney in the Middle District of Tennessee,
registered as a Filing User of the Electronic Filing
System and authorized to file and receive documents
by electronic means as set forth in Administrative
Order No. 167, Administrative Practices and
Procedures for Electronic Case Filing (ECF).
Furthermore, the attorney of record was informed
that the Plaintiff did not consent to electronic
communications, which includes e-mail, in the
process of legal action in the case of Edward Ronny
Arnold v. Bob Oglesby, Et Ad., NO: M2017-00808COA-RS-CV.

App. 25
I.

A MAIN ISSUE IN THE CASE OF Edward
Ronny Arnold v. Burns Phillips Commissioner of
the State of Tennessee Department ofLabor and
Workforce Development M2017-01103-COA-R3CV (Tenn. Ct. App. 2018) IS THE CLAIMS OF
REPRESENTATIVES THEY DID NOT
RECEIVE CERTIFIED MAIL FROM THE
PETITIONER, ARNOLD
Representatives of The State of Tennessee Office

of the Attorney General and Reporter have been
made aware of issues related to agencies of the State
of Tennessee claims to not receiving certified mail.
This issue has been presented before the Davidson
County Chancery Court, State of Tennessee Court of
Appeals and currently an Application for Appeal to
the State of Tennessee Supreme Court in the case of

App. 26
Edward Ronny Arnold v. Burns Phillips
Commissioner of the State of Tennessee Department
ofLabor and Workforce Development M2017-01103COA-R3-CV (Tenn. Ct. App. 2018), On Appeal from
Chancery Court for Davidson County Case No. 161174-IV, Russell T. Perkins Chancellor.
The alleged failure of representatives of the State
of Tennessee to receive certified mail from the
United States Postal Service requires the Plaintiff to
send all correspondence via certified mail with
return receipt.
It appears the issue of the State of Tennessee not
receiving certified mail from the United States Postal
Service has reversed to where mail, which is sent, is
not being delivered by the United States Postal
Service.

App. 27
In this case, the Plaintiff did not receive proper
service.
It is reasonable to conclude Fed. R. Civ. P. 5 (b)
(e) applies to first-class mail in addition to electronic
service. In this case, the filing by the Defendant is
not effective as the Plaintiff was not properly served
as knowledge of the filing was obtained at a later
date, through the Office of the U. S. District Court
Clerk.
If the Court Clerk had not sent a copy of the filing
order to the Plaintiff, the Plaintiff would have had no
knowledge of the filing, placing the Plaintiff at a
disadvantage of being denied the opportunity to
respond within the court designated time frame.

App. 28
A United States District Court order based on an
improper filing may constitute grounds for an appeal
to the United States Sixth Circuit Court of Appeals.
It is respectfully requested the court, Magistrate
Judge Newbern, direct the Defendant, Herbert
Slattery, III, State of Tennessee Attorney General
and Reporter, and the Defendant’s representatives,
to comply with Fed. R. Civ. P. 5 (b), in that all
correspondence between the Plaintiff and the
Defendant be administered by certified mail with
return receipt.
Respectfully submitted this
May, 2018.

/s/ Edward Ronny Arnold
Edward Ronny Arnold, Pro Se
5036 Suter Drive
Nashville, Tennessee 37211
(615) 331-7107

day of

App. 29
CERTIFICATE OF SERVICE
I hereby certify that a true and exact copy of the
foregoing DEFENDANT’S VIOLATION OF FED.
RULE. CIV. P. 5 (b) (e) IN FILING OF MOTION
FOR LEAVE TO FILE REPLY AND REPLY TO
FURTHER SUPPORT OF DEFENDANT’S MOTION
TO DISMISS has been served upon counsel for
Defendant by U.S. Mail, postage prepaid, addressed
to:
Herbert Slatery III
State of Tennessee Attorney General and Reporter
Rachel Jackson Building
320 6th Avenue North.
Nashville, TN. 37243
Taylor Jenkins
Assistant Attorney General
Civil Litigation and State Services Division
P.O. Box 20207
Nashville, Tennessee 37202-0207
On this the

day of May, 2018

/s/ Edward Ronny Arnold
Edward Ronny Arnold, Pro Se
5036 Suter Drive
Nashville, Tennessee 37211

r

App. 30
May 17, 2018

Taylor Jenkins
Assistant Attorney General
Civil Litigation and State Services Division
P.O. Box 20207
Nashville, Tennessee 37202-0207
Mr. Jenkins
Please find DEFENDANT’S VIOLATION OF FED.
RULE. CIV. P. 5 (B) (E) IN FILING OF MOTION
FOR LEAVE TO FILE REPLY, Edward Ronny
Arnold, for Case No. 3:18-cv-00280, Edward Ronny
Arnold Plaintiff v. Herbert Slatery III, State of
Tennessee
Attorney
General
and
Reporter
Defendant.
The State of Tennessee Office of the Attorney
General has been made aware of issues related to
representatives of the State of Tennessee
Department of Labor and Workforce Development
claiming they did not receive certified mail. This
ongoing issue requires the Petitioner / Plaintiff to
submit all documentation to the State of Tennessee
as certified mail with a return receipt as evidence the
documents were properly sent and properly received.
The inability of agencies of the State of Tennessee to
receive and send mail presents an issue to which the
court should be aware and to which a request has
been made to confirm the Certificate of Service.

App. 31
Thank you

/s/ Edward Ronny Arnold
Edward Ronny Arnold
Pro Se
5036 Suter Drive
Nashville, Tennessee 37211
(615) 331-7107
(615) 999-8044

App. 32
May 17, 2018

Herbert Slatery III
State of Tennessee Attorney General and Reporter
Rachel Jackson Building
320 6th Avenue North
Nashville, TN. 37243
Sir
Please find DEFENDANT’S VIOLATION OF FED.
RULE. CIV. P. 5 (B) (E) IN FILING OF MOTION
FOR LEAVE TO FILE REPLY, Edward Ronny
Arnold, for Case No. 3:18-cv-00280, Edward Ronny
Arnold Plaintiff v. Herbert Slatery III, State of
Tennessee
Attorney
General
and
Reporter
Defendant.
The State of Tennessee Office of the Attorney
General has been made aware of issues related to
representatives of the
State of Tennessee
Department of Labor and Workforce Development
claiming they did not receive certified mail. This
ongoing issue requires the Petitioner / Plaintiff to
submit all documentation to the State of Tennessee
as certified mail with a return receipt as evidence the
documents were properly sent and properly received.
The inability of agencies of the State of Tennessee to
receive and send mail presents an issue to which the

App. 33
court should be aware and to which a request has
been made to confirm the Certificate of Service.
Thank you,
Is/ Edward Ronny Arnold
Edward Ronny Arnold
Pro Se
5036 Suter Drive
Nashville, Tennessee 37211
(615) 331-7107
(615) 999-8044

